                       Volume Index
Volume
Number     File Name                     Contents                 Page Numbers

  1      VOLUME1.PDF   Executive Summary, Alabama through Idaho      i - 341

  2      VOLUME2.PDF   Illinois through Maryland                    342 -703

  3      VOLUME3.PDF   Massachusetts through New Jersey            704 - 1080

  4      VOLUME4.PDF   New Mexico through South Dakota             1081 - 1468

  5      VOLUME5.PDF   Tennessee through Wyoming                   1469 - 1845
